Report No. D-2007-062     February 28, 2007




     Department of the Navy Purchases
    for and from Governmental Sources
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GSA                   General Services Administration
MIPR                  Military Interdepartmental Purchase Request
NAVAIR                Naval Air Systems Command
O&M                   Operations and Maintenance
OIG                   Office of Inspector General
U.S.C.                United States Code
                              INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704




                                                                        February 28,2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               NAVAL INSPECTOR GENERAL

SUBJECT:	 Report on Department of the Navy Purchases for and from Governmental
          Sources (Report No. D-2007-062)


      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments, we redirected Recommendations A.l. Therefore ,
we request that the Under Secretary of Defense (Acquisition, Technology, and Logistics)
comment on Recommendation A.l. by March 28, 2007. We also combined and
redirected Recommendations A.2.a. and A.2.b., renumbered Recommendation A.2.c., and
redirected Recommendation B. to clarify our intention. The comments from the Assistant
Secretary of the Navy, Financial Management and Comptroller were non-responsive or
partially responsive because she did not state the corrective actions and date to implement
the recommendations. Therefore, we request that the Assistant Secretary of the Navy,
Financial Management and Comptroller provide comments on Recommendations A.2.a .,
A.2.b., and B. by March 28, 2007.

        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies ofthe management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara A. Sauls (703) 325-5782 (DSN 221-5782) or Ms. Monica M. Harrigan at
(703) 325-5930 (DSN 221-5930). See Appendix G for the report distribution. The team
members are listed inside the back cover.

                               By direction ofthe Deputy Inspector General for Auditing:

                                      /~~~
                                         P~ J. Granetto , CPA

                                Assistant Inspector General and Director

                                  Defense Financial Auditing Service

                Department of Defense Office of Inspector General
Report No. D-2007-062                                                    February 28, 2007
   (Project No. D2006-D000FH-0021.000)

               Department of the Navy Purchases for and from
                          Governmental Sources

                                 Executive Summary

Who Should Read This Report and Why? Members of Congress; the Under Secretary
of Defense (Comptroller)/Chief Financial Officer; the Assistant Secretary of the Navy,
Financial Management and Comptroller; the Director, Materiel Readiness and Logistics
Chief Naval Officer (N4); the Commanders of Navy Region Southwest, Fleet Forces
Command, and Naval Air Systems Command; and the Director of Defense Finance and
Accounting Service should read this report. The users of this audit report will benefit
from the review of controls over the Navy purchases for and from other governmental
agencies and gain information that can improve public accountability and decision
making.

Background. This is the second in a series of reports discussing DoD use of interagency
and interservice support. The first report, Report No. D-2006-102, “Marine Corps
Governmental Purchases,” July 31, 2006, discussed the Marine Corps lack of adequate
internal controls over outgoing and incoming military interdepartmental purchase
requests (MIPRs). This report discusses the Department of the Navy interagency and
interservice support. Section 1535, title 31, United States Code, “Agency Agreements,”
allows the head of an agency to place an order with another agency for goods or services
if funds are available, it is in the best interest of the United States Government, the other
agency can fill the order, and the order cannot be provided as conveniently by contract
with a commercial enterprise. In accordance with Public Law 108-375, “the Ronald
Reagan National Defense Authorization Act of FY 2005,” Section 802, “Internal
Controls for Department of Defense Procurements Through GSA [General Services
Administration] Client Support Centers,” the DoD Office of Inspector General and the
General Services Administration conducted an interagency audit of DoD purchases made
by the General Services Administration. The DoD Office of Inspector General
determined that guidance was unclear and found that mismanagement and lack of
acquisition planning for the funds transferred to General Services Administration caused
between $1 billion and $2 billion of DoD funds to either expire or otherwise be
unavailable to support DoD operations. That finding prompted the Office of Inspector
General management to conduct this series of audits on the subject.

Results. The Navy did not have adequate internal controls over governmental purchases.
Specifically, the Navy internal controls did not ensure that it properly administered
outgoing and incoming MIPRs. The internal controls were inadequate because the Navy
did not follow MIPR guidance. Additionally, the existing guidance from the Under
Secretary of Defense (Comptroller)/Chief Financial Officer was unclear. As a result,
Navy MIPRs violated public law and did not comply with Federal, DoD, and Navy
regulations.

The Assistant Secretary of the Navy, Financial Management and Comptroller should
direct the Navy Comptroller Office to review MIPRs to ensure that they do not violate
the Bona Fide Needs Rule and Antideficiency Act and to initiate required corrective
actions; develop procedures and controls that ensure that required data and supporting
documents are completed and reviewed before a MIPR is certified; develop procedures
and controls to ensure that all required MIPR documents and source documentation are
properly maintained; implement guidance on the MIPR process; and direct the Navy
Comptroller Office to develop standard operating procedures for internal guidance on
processing MIPRs. The report on the Marine Corps included a recommendation for the
Under Secretary of Defense (Comptroller)/Chief Financial Officer to revise the DoD
Financial Management Regulations, volume 11A, chapter 3, to clarify whether a
determination is required when the supplying organization must award a new contract to
meet the MIPR requirements. Therefore, we will not include that recommendation in this
report (finding A).

The Navy managers’ internal control program was ineffective and did not identify
material weaknesses related to reporting MIPRs. As a result, controls were not adequate
to ensure that MIPR transactions for the purchases of goods and services were properly
justified and executed and that the funds were monitored. The Fleet Force Command,
Navy Region Southwest, and Commander of Naval Air System Command should
perform periodic assessments of the effectiveness and reliability of internal controls
identified by the management control programs and report material weaknesses in their
annual statement of assurance until corrected (finding B). See the Findings section of the
report for the detailed recommendations.

Management Comments and Audit Response. The Under Secretary of Defense for
Acquisition, Technology, and Logistics/Resources and Analysis nonconcurred with the
recommendation to update DoD Financial Management Regulation because they do not
have the functional responsibility to revise the DoD Financial Management Regulation.
As a result, we redirected and revised this recommendation to update DoD Instruction
4000.19 to bring it in line with the upcoming revisions to the DoD Financial Management
Regulation. We request that the Deputy Under Secretary of Defense for Acquisition,
Technology, and Logistics provide comments on the final report by March 28, 2007.

The Assistant Secretary of the Navy, Financial Management and Comptroller
nonconcurred with one of the recommendations. Her comments were partially
responsive for the first two sections and non-responsive for the third section of this
recommendation. As a result of management’s comments, we combined and redirected
the first two sections to request that the Assistant Secretary of the Navy, Financial
Management and Comptroller direct the Navy Commands to develop and implement
standard operating procedures that will incorporate guidance on processing MIPRs. We
also renumbered the third section. We do not agree with management’s determination
that noncompliance with a process should not automatically infer a potential violation of
the Bona Fide Needs Rule or an Antideficiency Act violation. Furthermore,
management’s comments did not address those purchases that violated the statutory
limitation imposed on the appropriation. The Assistant Secretary of the Navy, Financial
Management and Comptroller agreed to take over responsibility for implementing the
recommendation to direct the Navy Commands to perform self-assessments of the
internal controls related to the MIPR process and determine whether conditions meet the
criteria for a material weakness. However, she did not indicate how or when the Navy
would implement this recommendation. We request that the Assistant Secretary of the
Navy, Financial Management and Comptroller comment on the final report by
March 28, 2007.

See the Finding sections of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

                                            ii
Table of Contents
Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Review of Internal Controls                                                    3

Findings
     A. Adequacy of Navy Internal Controls over Governmental Purchases         5
     B. Commands Managers’ Internal Control Program for Military
         Interdepartmental Purchase Requests                                  21

Appendixes
     A.    Scope and Methodology                                              24
     B.    Prior Coverage                                                     26
     C.    Glossary of Technical Terms                                        27
     D.    MIPRs Reviewed                                                     30
     E.    Deficiencies with MIPRs Reviewed                                   36
     F.    Availability of Funds                                              38
     G.    Report Distribution                                                40


Management Comments
     A. Office of the Under Secretary of Defense, Director of Acquisition,
          Technology, and Logistics                                           43
     B. Office of the Assistant Secretary of the Navy, Financial Management
          and Comptroller                                                     44
Background
           This is the second in a series of audit reports discussing the DoD use of
           interagency and interservice support. The first report, Report No. D-2006-102,
           “Marine Corps Governmental Purchases,” July 31, 2006, discussed the lack of
           adequate internal controls over outgoing and incoming military interdepartmental
           purchase requests (MIPRs) at the Marine Corps. This report discusses
           weaknesses identified with the Department of the Navy (Navy) interagency and
           interservice support. The remaining reports will discuss Army, Missile Defense
           Agency, and Special Operations Command use of interagency and interservice
           support. The DoD Office of the Inspector General (OIG) will issue separate
           reports to discuss DoD interagency support from the General Services
           Administration (GSA), Department of Treasury, Department of Interior, and the
           National Aeronautics and Space Administration.

           Regulation on Governmental Support. Federal and DoD regulations provide
           for the use of interagency support. DoD regulation also provides for the use of
           interservice support.

                  Federal Laws. Section 1535, title 31, United States Code (U.S.C.),
           “Agency Agreements,” January 2, 2001, allows the head of an agency to place an
           order with another agency for goods or services if those goods or services are
           available, it is in the best interest of the U.S Government, the other agency can fill
           the order, and the order cannot be provided by contract as conveniently by a
           commercial enterprise.

           Section 2410a, title 10, United States Code, “Severable Service Contracts for
           Periods Crossing Fiscal Years,” January 26, 1998, allows a contracting officer to
           enter into a contract, exercise an option, or place an order under a contract for
           severable 1 services for a period that begins in one fiscal year and ends in the next
           fiscal year if the period of the contract awarded, option exercised, or order placed
           does not exceed one year.
           The Federal Acquisition Regulation, Subpart 17.5, “Interagency Acquisitions
           Under the Economy Act,” defines an interagency acquisition as one agency
           obtaining supplies and services from another agency. The regulation states that
           the procedures for Economy Act orders between major organizational units within
           an agency are to be addressed in agency regulations.

                   DoD Regulations. DoD Instruction 4000.19, “Interservice and
           Intragovernmental Support,” August 9, 1995, implements policies, procedures,
           and responsibilities for interservice and intragovernmental support. The
           Instruction states that DoD organizations may provide services to other DoD
           activities when the head of the requesting activity determines it is in the best
           interest of the Government, and the head of the supplying activity determines that
           providing support will not jeopardize their mission. Specifically, DoD activities
1
    A task is severable if it can be separated into components that independently meet a separate and ongoing
    need of the Government.



                                                       1
can provide support with their own personnel or add the requesting activity’s
requirements to an existing contract.

The Instruction states that Support Agreements for supplies and services that will
be provided under contracts administered by non-DoD Federal activities must
meet one of the following requirements:

   •   the supplying agency made the purchase under a contract that it entered
       into, before the agreement, to meet its own requirements for the same or
       similar services;

   •   the supplying agency is better qualified to enter into or administer the
       contract for specified support by reason of capabilities or expertise not
       available within the Department; or

   •   the supplying agency is specifically authorized by law or regulations to
       purchase such services on behalf of other agencies, or the purchase is
       authorized by an Executive order or by specific circumstances identified in
       the Federal Acquisition Regulation (FAR).

DoD Financial Management Regulation (FMR), volume 11A, chapter 3,
“Economy Act Orders,” April 2000, prescribes policies and procedures applicable
to transactions where goods or services are procured from other Federal agencies
under the Economy Act, 31 U.S.C 1535. An organization within a DoD
Component may place an order for goods or services with another organization
within the same DoD Component, another DoD Component, or with another
Federal agency.

The Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer provided DoD policy in a memorandum, “Fiscal Principles and
Interagency Agreements,” September 25, 2003. The memorandum states that
every order under an interagency agreement must have a legitimate, specific, and
adequately documented requirement representing a bona fide need in the year in
which the agency made the order. It also states that DoD may not use an
interagency agreement in the last days of the fiscal year solely to prevent funds
from expiring or to keep them available for a requirement arising in the following
fiscal year.

DoD Military Interdepartmental Purchase Requests. The military
interdepartmental purchase request (MIPR), DD Form 448, is issued by one
military Service to another to procure services or supplies. The supplying Service
provides a DD Form 448-2, “MIPR Acceptance,” agreeing to provide the
requested services or supplies. DoD may also issue the MIPR to non-DoD
Federal agencies. DoD issues MIPRs under the authority of the Economy Act and
funded on a direct citation or reimbursable basis.

Non-Defense Purchases. In accordance with Public Law 108-375, “the Ronald
Reagan National Defense Authorization Act of FY 2005,” Section 802, “Internal
Controls for Department of Defense Procurements Through GSA Client Support
Centers,” DoD OIG and the GSA conducted an interagency audit of DoD


                                     2
           purchases made by GSA. The DoD OIG determined that guidance was unclear
           and misunderstood. The DoD OIG determined that mismanagement of funds and
           lack of acquisition planning for the funds transferred to GSA caused between
           $1 billion and $2 billion of DoD funds to either expire or otherwise be unavailable
           to support DoD operations. As a result of this finding, the OIG management
           decided to conduct additional audits on this subject.

Objectives
           Our overall objective was to evaluate the internal controls over the Department of
           the Navy’s purchases from governmental sources. Specifically, we examined the
           Department of the Navy’s process for initiating, obligating, and disbursing for
           MIPRs and interagency purchases. We examined whether the Department of the
           Navy clearly defined its requirements and whether it properly used and tracked
           funds. We also evaluated the management control program as it relates to our
           audit objective. Finding B further discusses the managers’ internal control
           program. See Appendix A for a discussion of the scope and methodology and
           Appendix B for prior coverage related to the objectives. Appendix C is a glossary
           of technical terms used in this report.

Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           January 4, 2006, require DoD organizations to implement a comprehensive
           system of managers’ internal controls that provides reasonable assurance that
           programs are operating as intended and to evaluate the adequacy of the controls. 2

           We reviewed the adequacy of Naval Air Systems Commands (NAVAIR), First
           Naval Construction Division (Construction Division), and Commander Navy
           Region Southwest (Navy Region) managers’ internal controls over the MIPRs
           process and interagency purchases. Specifically, we reviewed the Commands
           managers’ internal controls over the process of initiating, obligating, and
           disbursing for MIPRs. We also reviewed the adequacy of management’s
           self-evaluation of those controls.

           We identified material internal control weaknesses as defined by DoD
           Instruction 5010.40. The Commands internal controls for processing MIPRs were
           not adequate to ensure that funds were properly obligated, expensed, and
           disbursed. Recommendations A.1., if implemented, will correct the identified
           weaknesses and could result in potential monetary benefits. The amount of
           monetary benefit is undeterminable at this time because DoD could not provide a

2
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was cancelled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January 4,
    2006



                                                     3
complete universe of MIPRs and we were unable to project on our audit sample.
We will provide a copy of the report to the senior officials responsible for the
Managers’ Internal Control Program at the Commands.




                                    4
                   A. Adequacy of Navy Internal Controls
                      over Governmental Purchases
                   The Navy did not have adequate internal controls over governmental
                   purchases. Specifically, the Navy internal controls did not ensure that it
                   properly administered the outgoing and incoming MIPRs, interagency
                   purchases, and their equivalents. The internal controls were inadequate
                   because the Navy did not follow Federal, DoD, and Navy guidance. In
                   addition, the existing guidance from the Under Secretary of Defense
                   (Comptroller)/Chief Financial Officer was unclear. As a result, purchases
                   made by and for the Navy:

                            •   may not have been in the best interest of the Federal
                                Government;

                            •   did not comply with Federal, DoD, and Navy regulations; and

                            •   could have led to the mismanagement of appropriated funds or
                                violation of appropriations law.

Navy MIPRs
          The Navy was unable to provide a universe that included all outgoing and
          incoming MIPRs; therefore, we judgmentally selected a sample of 117 MIPRs
          from a universe of MIPRs provided by NAVAIR, Construction Division, and
          Navy Region. Specifically, we reviewed 60 outgoing MIPRs and 57 incoming
          MIPRS. NAVAIR generated its universe of transactions from SIGMA, 3
          Construction Division generated their universe of transactions from an access
          database, and Navy Region provided their universe of transactions from CFMS 4
          for FY 2005 transactions and FASTDATA 5 for FYs 2003 and 2004 transactions.
          See Appendix D for the MIPRs we reviewed and the weaknesses identified. The
          following table provides the Navy’s outgoing and incoming MIPR selection by
          the locations visited and by the dollar value reviewed.

                                      MIPR Sample Selection
                                 Outgoing MIPRs     Incoming MIPRs                  Total
    NAVAIR                          $922,794,863        $166,429,743             $1,089,224,606
    Navy Region                        9,056,281           12,234,427                21,290,708
    Construction Division              2,391,317              865,078                 3,256,395
    Total MIPR Value:               $934,242,461        $179,529,248             $1,113,771,709

3
    Enterprise Resource Planning (ERP) system (SIGMA) is a Navy system.
4
    Claimant Financial Management System (CFMS) is a Navy system.
5
    Fund Administration and Standardized Document Automation (FASTDATA) is a Navy system.



                                                   5
Outgoing Navy MIPRs
 The Navy did not have adequate internal controls over its outgoing MIPRs. We
 reviewed 60 outgoing MIPRs, valued at about $934.2 million, that NAVAIR,
 Construction Division, and Navy Region had issued to other Government sources.
 The Navy had not followed existing guidance for properly initiating, preparing,
 and executing those MIPRs.

 MIPR Initiation
 The Navy requesting activities were responsible for conducting market research
 and determining that MIPR purchases were in the best interest of the Government
 and served a bona fide need.

 Market Research. FAR Subpart 7.1, September 30, 2005, “Acquisitions
 Planning,” requires agencies to conduct market research for all acquisitions in
 order to promote and provide for:

    •   acquisition of commercial items and

    •   full and open competition.

 Furthermore, FAR Part 10, “Market Research,” prescribes the policies and
 procedures for conducting market research to select the most suitable approach to
 acquire, distribute, and support supplies and services. To accomplish this
 objective agencies must:

    •   ensure that legitimate needs are identified and tradeoffs are evaluated to
        acquire items that meet those needs,

    •   conduct market research appropriate to the circumstances, and

    •   use the results of market research to determine if there are sources capable
        of satisfying the agency’s requirements.

 The Navy either did not conduct market research or could not provide evidence of
 market research for 50 of its MIPRs valued at $926 million. For example, the
 Construction Division was unable to provide documentation to support market
 research for five MIPRs, valued at $65, 217, accepted by DoD Components
 located in U.S. Embassies. The Construction Division issued these MIPRs to
 procure equipment, supplies, and repair services in foreign countries.
 Construction Division Comptroller personnel stated that experts from the
 regiment go to actual conferences at the location where the funds and services are
 needed to determine if the service can be done at the appropriate price. After
 further inquiry, Comptroller personnel stated that personnel at the regiment
 location probably kept the documentation. We were unable to verify if the
 respective acquisition officials were properly involved in the MIPR process,



                                      6
and the Navy could not ensure the fulfillment of the Government’s needs or that
full and open competition exists.

Determination and Findings and Support Agreements. The FAR
Subpart 17.5, “Interagency Acquisitions Under the Economy Act,” and DoD
FMR, volume 11A, chapter 3, “Economy Act Orders,” April 2000, require a
Determination and Findings to support each Economy Act order that uses
interagency support capabilities. To comply with the Determination and Findings
requirements, the requesting agency should document that orders are in the best
interest of the U.S. Government and that the Government cannot obtain the
supplies and services as conveniently or economically by contracting directly with
a commercial enterprise.

According to FAR Subpart 17.5, the Economy Act applies when a more specific
statutory authority does not exist. Further, DoD FMR, volume 11A, chapter 3,
explains that it is important to identify the source of the authority for the provision
of goods and services. If no statutory authority is identified, the authority will be
the Economy Act. For 59 of the 60 MIPRs, the Navy did not state a specific
statute of authority on the MIPR form. However, the Navy identified a statutory
authority other than Economy Act for 5 of the 59 MIPRs. Therefore, we
interpreted that the Economy Act applied to 54 of the 60 MIPRs. For 50 of the
54 MIPRs valued at $934 million, the Navy did not have Determination and
Findings or Support Agreements.

        Non-DoD Agencies. The Navy did not provide a Determination and
Findings to support one MIPR sent to a non-DoD agency. Because the Navy did
not prepare a Determination and Findings document for the non-DoD MIPR, the
respective contracting offices, which are required to approve Determination and
Findings, were not properly involved with the MIPR purchases.

       DoD Agencies. DoD Instruction 4000.19, “Interservice and
Intragovernmental Support,” August 9, 1995, states that a signed DD Form 1144,
“Support Agreement,” documents the required determination by both the
requesting and supplying activity for interservice support with DoD organizations.

For the 49 MIPRs to other DoD organizations, the Navy did not have a Support
Agreement or could not provide a Support Agreement with the supplying and
receiving activities signatures and dates, blocks 8 and 9. For example, the Navy
Region issued 14 MIPRs under Economy Act Orders to other DoD agencies. Of
the 14 MIPRs, 1 resulted in in-house training provided by Army and 13 resulted
in commercial contracts for items such as refueling and air transportation. The
Navy Region did not provide a Support Agreement for the 14 MIPR transactions.
After further inquiry, Navy Region Deputy Comptroller stated that the proper
statutory authority for the 13 of the 14 MIPRs should have been FAR Subpart 12,
“Acquisition of Commercial Items.” As a result, during the initiation process of
the MIPRs, the Navy did not determine whether the provided goods and services
were in the best interest of the Government and justified under the applicable
statute.




                                      7
Bona Fide Needs. Section 1502 (a), title 31, United States Code, “Balances
Available,” October 11, 2005, also known as the Bona Fide Needs Rule, requires
that the balance of an appropriation or fund limited for obligation to a definite
period is available only for payment of expenses properly incurred during the
period of availability, or to complete contracts properly made within that period
of availability. DoD FMR, volume 11A, chapter 3, which incorporates the Bona
Fide Needs Rule, requires Economy Act orders citing an annual or multiyear
appropriation serve a need existing in the fiscal year for which the appropriation
is available.

The Navy issued 54 of the 60 MIPRs under the Economy Act or other statutory
authorities and cited an annual or multiyear appropriation; therefore, the
54 MIPRs were required to meet the Bona Fide Needs Rule. Because the Navy
did not provide Support Agreements or accounting documents to identify the
periods of performance for 18 MIPRs, we were unable to determine whether
18 (valued at $533.5 million) of the 54 MIPRs met the Bona Fide Needs Rule.

MIPR Preparation
As the requesting activity, the Navy was responsible for preparing proper
documentation when issuing MIPRs to the accepting activity. Guidance for
preparing MIPRs is included in the:

   •   Defense Federal Acquisition Regulation Supplement (DFARS)
       Subpart 208.70, “Coordinated Acquisition,” Revised June 21, 2005;

   •   DFARS Subpart 253.208, “Required Sources of Supplies and Services,”
       August 31, 2000; and

   •   Secretary of the Navy Instruction 7000.27, “Comptroller Organizations,”
       January 22, 2003.

As a Component of DoD, the Navy should use and properly complete
DD Form 448. However, the Navy did not properly complete the DD Form 448
for 43 of the 60 MIPRs. The 43 MIPRs had one or more of the following
weaknesses.

Delivery Requirements. For 20 MIPRs, valued at $243.7 million, the Navy did
not complete the DD Form 448 in accordance with 31 U.S.C 1501 and with
DFARS 253.208. DFARS 253.208 requires that the agency clearly state the
required period of performance in each MIPR, taking into consideration
administrative lead times. However, the 20 MIPRs did not specify the required
period of performance. Without the required period of performance, the Navy
would have difficulty determining whether the supplying activity was performing
the MIPR in accordance with the original agreement. Further, lack of the required
period of performance may have limited the Navy’s ability to comply with the
Bona Fide Needs Rule.

Point of Contact Information. For nine MIPRs, valued at $256.4 million, the
Navy did not complete DD Form 448 in accordance with DFARS 253.208.


                                     8
DFARS 253.208 requires that the agency state the name and telephone number of
an individual who is thoroughly familiar with the MIPR, its attachments, and
technical requirements. However, nine MIPRs did not specify the required point
of contact information. Without the required point of contact information, the
Navy would have difficulty resolving issues arising throughout the performance
period of the order.

Additional Line Items. The Navy created amendments to six MIPRs, valued at
$290.9 million, that added line items not included in the basic DD Form 448. In
accordance with DFARS 208.70, the Navy should have submitted a new MIPR to
address requirements for additional line items of supplies or services not included
on the original MIPR. NAVAIR issued one MIPR that originally provided funds
for Knighthawk aircraft and a related engineering change proposal. Subsequently,
NAVAIR amended the MIPR to purchase unique identification parts markings
and increased the MIPR value by approximately $88,315. Because the
amendment was not part of the original request, NAVAIR should have prepared a
new MIPR for this service.

Delegation of Fiduciary Authority. The Navy did not provide evidence that
individuals signing the MIPRs had the authority to administer funds in accordance
with Navy Instructions. The Navy Instruction 7000.27, “Comptroller
Organizations,” January 22, 2003, states that the Service Chiefs and heads of
major commands, offices, or bureaus who receive an allocation from the Assistant
Secretary of the Navy, Financial Management and Comptroller or the Chief of
Naval Research may elect to pass to the organizational comptroller all financial
responsibility under 31 U.S.C. 1517. The head of the command or organization
delegates this authority in writing. Additionally, it must identify the individual to
whom this authority is granted, the appropriation accounts involved, and the
specific responsibility and authority delegated. However, for 25 MIPRs valued at
$152.2 million, the Navy could not provide documentation identifying that the
individual who signed the DD 448 and its amendments had the authority to
administer funds. In addition, for one MIPR valued at $435,600, we could not
identify who signed the DD 448. Without fiduciary authority, the MIPR and
amendments procurement funds are not chargeable.
MIPR Execution
As the requesting activity, the Navy is responsible for managing MIPR funds and
documentation, and for monitoring progress by the accepting activity. However,
the Navy did not adequately perform these responsibilities for 55 of the
60 MIPRs. The 55 MIPRs had one or more of the following weaknesses.

Validity of Disbursements. The requesting fund managers’ files did not include
copies of the shipping reports or invoices to support disbursement transactions for
45 MIPRs, valued at $925.5 million, as required by DoD FMR, volume 5,
chapter 33, “Departmental Accountable Officials, Certifying Officer and Review
Officials,” April 2005, and Navy Marine Corps Acquisition Regulation
Supplement, revised February 2006. According to the NAVAIR Comptroller
Accounting Office, program offices maintained documentation to substantiate the
receipt and acceptance of supplies and services. After repeated requests, the


                                      9
program offices could not provide us the documentation. Additionally, personnel
in the Construction Division Comptroller and Accounting Office stated that the
Defense Finance and Accounting Service (DFAS) maintained the required source
documents to substantiate the receipt and acceptance of supplies and services.
However, according to DFAS personnel, for reimbursable orders DFAS performs
its disbursement responsibilities without obtaining documents that substantiate
receipt and acceptance of supplies and services. The Navy should implement
policies and procedures to address record retention to verify the receipts of
ordered goods and validity of related disbursements.

Commitments. The Navy did not record commitments timely for four MIPRs
reviewed and valued at $3.1 million. According to DoD FMR, volume 3,
chapter 15, “Receipt and Use of Budgetary Resources Execution Level,”
December 1996, a commitment is an administrative reservation of funds. In
addition, DoD FMR, volume 3, chapter 8, “Standards for Recording and
Reviewing Commitments and Obligations,” June 2005, states that the signed
DD Form 448 is a commitment until validly obligated. However, for one MIPR
valued at $81,019, the Navy Region did not post the commitment in the
accounting system. For the remaining three MIPRs, the Navy Region had posting
dates in the accounting system ranging from 16 to 52 days after signing the
DD Form 448. For example, the Navy Region posted a commitment 52 days after
issuing a signed DD Form 448 for an outgoing MIPR, with an initial value of
$1.4 million. The $1.4 million MIPR provided funding for aircraft refueling. The
timely posting of commitments in the accounting system will reserve money for
the particular order for supplies or services, and will help track available funds.
By not recording commitments in the accounting system, the Navy increased its
risk of potential Antideficiency Act violations.

Obligations. For 17 ($5.4 million) of the 60 MIPRs, the Navy either did not
timely record obligations or did not obtain valid obligating documentation, such
as MIPR Acceptances. In accordance with DoD FMR, volume 3, chapter 8, an
agency must record an obligation in the accounting system within 10 calendar
days following the day the obligation occurred. For six MIPRs, the Construction
Division and the Navy Region recorded the obligation of $3.4 million more than
10 days after the receipt of the MIPR Acceptances.

DoD FMR states the recording of an obligation occurs when supported by
documentary evidence of the transaction. The Construction Division and the
Navy Region recorded the obligation of $2.2 million for nine MIPRs before
receiving the signed MIPR Acceptance. These MIPRs procured items such as
repair and reconfigure of cathodic protection for a natural gas system. In another
instance, the Construction Division and the Navy Region obligated $79,880 for
three MIPRs without a signed acceptance, DD Form 448-2. These MIPRs
procured support for training exercises, building maintenance and renovation, and
material and equipment for the construction of a golf cart trail. By not recording
the obligation in the accounting system in a timely manner, the Navy increased its
risk of potential Antideficiency Act violations. Further, the Navy might not have
discovered the potential violation until it recorded an unmatched disbursement in
the accounting system.



                                    10
    Deobligations. The Navy did not timely deobligate $300,566 for 12 MIPRs
    valued at $8.6 million. In accordance with DoD FMR, volume 11A, chapter 3,
    activities must reconcile the obligation status of Economy Act orders and
    deobligate unused funds before the end of the period of availability of the funds.
    DoD FMR, volume 3, chapter 8, also states that fund holders are responsible for
    conducting reviews of outstanding commitments and unliquidated obligations. It
    requires the responsible individuals to document and process all required
    deobligations, adjustments, or corrections identified during the review within
    10 working days. However, neither the fund managers nor supporting
    documentation for the Construction Division and the Navy Region confirmed that
    11 MIPRs with a balance of $252,566 needed to be deobligated. By not
    performing reviews of the obligations in the accounting system, the Navy
    increased its risk of potential Antideficiency Act violations.
    Accounting Documentation. For 22 of the 60 MIPRs, Navy had not provided
    accounting documentation to validate its commitments, obligations, deobligations,
    and disbursements. After repeated requests to NAVAIR’s personnel, NAVAIR
    could not provide the accounting documentation to validate the 20 MIPRs valued
    at approximately $922.8 million. Additionally, the Construction Division could
    not provide documentation to support two MIPRs, valued at $898,378. These
    MIPRs procured items such as communication equipment and technical support
    for a chemical, biological, and radiological operational space item management
    system. The Navy’s inability to provide accounting records could hinder them
    from obtaining an unqualified opinion on their financial statements.

Incoming Navy MIPRs
    Navy did not have adequate internal controls over incoming MIPRs. We
    reviewed 57 incoming MIPRs valued at about $179.5 million that Navy Region,
    Construction Division, and NAVAIR had received from other governmental
    sources. Navy accepted improper MIPRs, did not properly administer the MIPRs,
    and inappropriately altered appropriation classifications for those MIPRs.
    MIPR Acceptance
    The Navy was responsible for properly accepting incoming MIPRs. However, the
    Navy did not ensure applicable regulations were followed when accepting MIPRs.

    Justification Documents. In accordance with the DFARS 217.504, “Interagency
    Acquisitions Under the Economy Act,” Revised March 25, 1999, the Navy was
    responsible for ensuring that any requests for goods or services from another
    agency had a Determination and Findings document attached to the DD Form
    448, “Military Interdepartmental Purchase Request.” DoD Instruction 4000.19
    grants an exception to this requirement for purchases within DoD if a signed
    Support Agreement to provide goods or services is in place. However, the Navy
    accepted 45 MIPRs, valued at $163 million, from DoD components and Federal
    agencies without a Determination and Findings document or a signed Support
    Agreement.



                                        11
Incomplete Forms. In accordance with DFARS 253.208, the Navy was
responsible for ensuring that all applicable blocks on the DD Form 448-2,
“Acceptance of MIPRs,” were completed. However, the Navy did not complete
the following on 48 MIPRs, valued at $142.6 million:

   •   block 6, which requires the specific terms (such as reimbursable or direct
       citation of funds) under which the MIPR is being accepted, and

   •   block 13, which requires (a) justification, by MIPR line item, for any
       additional funds required and (b) appropriation and subhead data.

Required Forms. The Navy accepted two MIPRs valued at $237,400 from other
commands within the Navy using the DD Form 448. Navy Comptroller Manual
requires that any request for reimbursable work or services from another
command within the Department of the Navy use the Navy Comptroller 2275,
“Order for Work and Services,” form. However, Construction Division accepted
one MIPR to provide uniforms for fleet hospital personnel, valued at
$235,400 from the Navy, Bureau of Medicine and Surgery that used the
DD Form 448.
MIPR Administration

As the accepting activity, the Navy was responsible for properly administering
incoming MIPR work and related funds. However, the Navy did not properly
administer 52 of the 57 incoming MIPRs we reviewed. The 52 MIPRs had one or
more of the following weaknesses.

Timely Acceptance. The Navy was responsible for ensuring that it properly
accepted MIPRs within 30 days of receipt of the requesting activity MIPR
request. DFARS 208.7004-2(a) “Coordinated Acquisition,” Revised
June 21, 2005, states acquiring activities formally accept a MIPR, as soon as
practicable, but no later than 30 days after receipt of the DD 448. However, the
Navy either could not provide evidence of acceptance or did not accept 12 of the
57 MIPRs received, valued at $28.7 million, within 30 days. For example,
Navy Region did not maintain evidence for the date of receipt for MIPRs received
through the mail. As a result, Navy Region was unable to determine if it accepted
eight MIPRS within 30 days. In another example, the Construction Division
received a MIPR for the provision tactical vehicle maintenance, dated October 23,
2003, and issued the acceptance on February 27, 2004.

Support Documentation. The Comptroller personnel files did not have the
source documents, such as invoices, as required by DoD FMR, volume 11A,
chapter 1, “Billing Standard,” March 1997, and Navy Marine Corps Acquisition
Regulation Supplement, revised February 2006, for 42 reimbursable MIPRs
valued at $55.6 million. In accordance with DoD FMR, volume 11A, chapter 1,
DoD Components performing work or services on a customer order must bill the
requesting DoD Component, other Federal agency, or the public for earned
reimbursements (performance of work or services, payments to contractors, or
delivery from inventory) within 30 calendar days after the month in which
performance occurred. The payment due date must not be more than 30 calendar


                                    12
     days from the date of the invoice. However, the Navy could not provide
     documentation that showed the validity of funds disbursed.

     Deobligations. For 27 MIPRs, valued at $4.6 million, the Navy either did not
     deobligate funds or did not timely notify the requesting activity of $251,171 of
     funds available for recapture. In accordance with DFARS 208.7004-9(a), the
     acquiring department must maintain a system of MIPR followup to inform the
     requiring department of the status of its requests. Additionally, DoD FMR,
     volume 3, chapter 8, requires fund holders to perform triannual reviews of
     commitments and obligations for direct appropriations and reimbursable
     transactions. However, the Construction Division and the Navy Region did not
     timely deobligate $170,914 for 18 MIPRs and $80,257 for 9 MIPRs. Navy
     Region and Construction Division should have notified the requesting activity of
     funds to be recaptured or performed periodic reviews by September 30, 2004 and
     2005, in compliance with DoD FMR, volume 3, chapter 8.

     Cost Overruns. The Navy did not timely inform the requesting activity of cost
     overruns totaling $188,134 for three MIPRs, valued at $4 million. As the
     servicing activity, the Navy was responsible for notifying the requesting activities
     in a timely manner of cost overruns. DFARS 208.7004-9 states the acquiring
     department will maintain a system of MIPR followup to inform the requiring
     department of current MIPR status. However, Navy Region performed three
     services for utilities and firefighter support services that exceeded the obligated
     amount. Navy Region did not contact the requesting activity for $188,134 in
     additional funds to cover the cost. By not having obligations to cover cost
     overruns, the Navy increased its risk of potential Antideficiency Act violations.

     Accounting Documentation. For 12 of the 57 MIPRs we reviewed, Navy had
     not provided accounting documentation to verify the validity of its obligations,
     deobligations, and disbursements. After repeated requests to NAVAIR’s
     personnel, NAVAIR was unable to provide us the accounting documentation to
     validate the 12 reimbursable MIPRs valued at approximately $43.8 million.

Appropriation Classifications
     As the accepting activity, the Navy was responsible for ensuring that limitations
     imposed on the use of funds were not changed. However, the Navy altered the
     appropriation classification to accept and perform incoming MIPRs as
     reimbursable orders for 7 of the 57 MIPRs reviewed, valued at $380,768.

     The Navy received MIPRs from governmental activities that cited various
     appropriation classifications including Operations and Maintenance (O&M);
     Research, Development, Test, and Evaluation; Procurement; Working Capital
     Fund; and Military Construction. However, the Navy accepted seven MIPRs with
     appropriation classifications other than O&M and classified all MIPR work under
     the O&M appropriation. For example, Navy Region used O&M funds for a
     MIPR that cited Research, Development, Test, and Evaluation valued at $76,990.
     Navy Region could not provide documentation for the specific authority that
     authorized the transfer of the appropriation. Navy Region accepted the MIPR to



                                          13
    perform services such as communications line cost, utility bills, phone services,
    Government vehicles, and labor services.

    The Construction Division used O&M funds from MIPRs that cited Defense-wide
    military construction funds for six MIPRs valued at $303,778. Construction
    Division Comptroller personnel stated that because the Construction Division
    does not have the requesting activity line of accounting in the system, the
    customer’s line of accounting becomes Construction Division’s O&M line of
    accounting. Comptroller personnel also provided the Financial Management of
    Resources Operating Forces Procedures NAVSO P-3013, “Fleet Finance and
    Accounting Manual,” April 2002, as the authorized authority. After reviewing
    this document, we did not find where in the manual the Construction Division was
    given the authority to change the appropriation classification to O&M. Each
    appropriation classification has its own restrictions and authorized uses. (See
    Appendix F for more information on the availability of funds for various
    appropriation classifications.)

    Some of the items and services provided through MIPRs fall within appropriation
    classifications other than O&M. Otherwise, the requesting activities would not
    have transferred the particular funding noted on the MIPRs to the Navy.
    Section 1301, title 31, United States Code, “Application,” specifically prohibits
    the transfers of an amount from one appropriation account to another
    appropriation account unless the law authorizes the transfers. The Navy does not
    have the specific authority to transfer money from the appropriation noted on the
    MIPR to another appropriation. The Economy Act, 31 U.S.C. 1535, does not
    allow a MIPR recipient to transfer the requesting activity’s funds to another
    appropriation. Therefore, the appropriations supporting the MIPRs are those of
    the requesting activity not the Navy.

    Because the Navy violated the statutory limitation on the purposes for which the
    O&M appropriation may be used, the Navy may also have incurred
    Antideficiency Act violations according to DoD FMR, volume 14, chapter 2,
    “Violations of the Antideficiency Act,” October 2002. The Navy should
    determine if an Antideficiency Act violation occurred. If a violation occurred, the
    Navy is required to perform corrective actions for the violation as provided in
    DoD FMR, volume 14, chapter 10, “Violations—Causes, Prevention and
    Correction,” October 2004.

Navy Procedures for Implementing MIPR Processes
    Navy Region, Construction Division, and NAVAIR based Navy procedures for
    implementing MIPR processes on their interpretation of the Federal guidance,
    DoD guidance, and NAVAIR Instructions. Additionally, the Navy did not issue
    guidance addressing the MIPR process. The lack of clear guidance or any
    guidance discouraged the implementation of adequate controls over outgoing and
    incoming MIPRs for the Navy.




                                        14
Federal and DoD Guidance on Determinations and Findings
To support an interagency Economy Act order, FAR Subpart 17.5, and DoD
FMR, volume 11A, chapter 3, require the agency to prepare a Determination and
Findings. For interservice support, DoD Instruction 4000.19 and DoD FMR,
volume 11A, chapter 3, state that a signed Support Agreement documents the
required determination. However, DoD guidance does not clearly address
interservice acquisitions that require the supplying organization to award a new
contract. Because the guidance was unclear, we contacted the Office of the
Secretary of Defense (Comptroller) for clarification. The Comptroller’s office
stated that agencies must use either a Determination and Finding or Support
Agreement stating that the purchase is in the best interest of the Government to
support the Economy Act Order.

Department of Defense Office of the Inspector General Report No. D-2006-102,
“Marine Corps Governmental Purchases,” July 31, 2006 included a
recommendation that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer revise DoD FMR, volume 11A, chapter 3, to clarify whether a
determination is required when the supplying organization must award a new
contract to meet the MIPR requirements. On September 22, 2006, the
Comptroller’s office partially concurred with the recommendation, responding as
follows:
       The Comptroller’s office [OUSD(C)] and Office of the Under Secretary
       of Defense (Acquisition, Technology, and Logistics) have established
       an Interagency Acquisitions Working Group, comprised of
       representatives from the military services and select defense agencies,
       tasked to review and recommend improvements in DoD business
       practices and policies governing interagency orders under the Economy
       act and other statutory authorities. As part of its objectives, the
       Working Group plans to review and recommend changes to the DoD
       FMR, volume 11A, chapter 3, by the end of December 2006. We
       anticipate issuance of the revised DoD FMR in the spring of 2007.

       The Under Secretary of Defense (Acquisition, Technology, and
       Logistics) (USD [AT&L]) is the appropriate authority to clarify
       whether a DoD organization must prepare either a Determinations and
       Findings (D&F), or a Support Agreement, for Economy Act Orders.
       Currently the DoD FMR, volume 11A, chapter 3, Economy Act orders,
       reflects the Federal Acquisition Regulations (FAR) requirement that all
       Economy Act orders must be supported with a D&F.

We expect the Interagency Acquisitions Working Group to decide whether a DoD
organization must prepare either a Determinations and Findings or a Support
Agreement for Economy Act Orders. Once this decision is made, both the FMR
and the USD (AT&L) DoD Instruction 4000.19 should be changed, if necessary,
to reflect that decision. As the office responsible for the DoD Instruction
4000.19, we are requesting the Under Secretary of Defense for Acquisition,
Technology, and Logistics revise the DoD Instruction 4000.19 to bring it in line
with revisions to the DoD FMR as a result of the working group decisions.



                                         15
    Guidance Updates and Implementation
    We found the Navy guidance insufficient because the Navy did not issue specific
    guidance to define the implementation of the MIPR process between the Navy
    and another DoD organization. As a result, Navy Region, Construction Division,
    and NAVAIR relied on generally written Federal and DoD FMR guidance.
    Although NAVAIR followed NAVAIR instructions that addressed
    interdepartmental purchase requests, the Navy in general did not follow Federal,
    DoD, and Navy guidance throughout the outgoing and incoming MIPR processes.

    NAVAIR Guidance. NAVAIR personnel based their MIPR processes, between
    DoD Components, on their interpretation of the NAVAIR instructions,
    “Responsibilities and Procedures for Issuing Interdepartmental Purchase
    Request,” January 13, 2000. NAVAIR incorporated the MIPR processes into the
    training material taught by the Comptroller/Accounting Office personnel. The
    NAVAIR MIPR process, between DoD Components, does not require personnel
    to produce the same level of documentation as for the interdepartmental purchase
    request process. In March 2005, NAVAIR issued a NAVAIR Notice addressing
    procedures for proper use of non-DoD contracts. However, the NAVAIR Notice
    does not address MIPRs between DoD Components.

    Navy Compliance. The Navy commands visited had not established standard
    operating procedures that standardized the MIPR process. Further, Navy
    personnel did not prepare the required MIPR documents or inaccurately prepared
    MIPR forms and supporting documentation including financial transaction
    records. The lack of standard operating procedures resulted in the Navy not
    complying with portions of applicable guidance because DoD criteria lead to
    various interpretations and applications of MIPR guidance.

    The Assistant Secretary of Navy, Financial Management and Comptroller of the
    Navy should direct the Navy Commands to develop standard operating
    procedures that will address developing, processing, and administering MIPRs.
    Further, they should require the Navy Comptroller Office to implement these
    standard operating procedures.

Conclusion
    Adequate internal controls are a critical element to ensuring the proper
    management of MIPRs. The lack of adequate internal controls at the Navy over
    the MIPR process resulted in potential violations of the Antideficiency Act,
    violations of public law, and noncompliance with Federal, DoD, and Navy
    regulations. By violating the statutory authority limitations on the purpose for
    which the O&M appropriation may be used, the Navy may have incurred an
    Antideficiency Act violation. The Navy must improve internal controls over the
    MIPR process by establishing standard operating procedures that will enforce
    existing Federal, DoD, and Navy regulations.




                                        16
Recommendations, Management Comments, and Audit
  Response
    Redirected and Revised Recommendations. As a result of management
    comments, we redirected and revised Recommendation A.1. to direct the Office
    of the Under Secretary of Defense for Acquisition, Technology, and Logistics to
    update DoD Instruction 4000.19. We combined and redirected Recommendations
    A.2.a. and A.2.b. to request that the Assistant Secretary of the Navy, Financial
    Management and Comptroller direct the Navy Commands to develop and
    implement standard operating procedures that include the MIPR process. We
    renumbered and revised Recommendation A.2.c. to A.2.b. to direct the Assistant
    Secretary of the Navy, Financial Management and Comptroller to initiate
    investigations on 18 purchases that potentially violated the Bona Fide Needs Rule
    and 7 purchases that potentially violated statutory limitations imposed on
    appropriations.

    A.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics revise the DoD Instruction 4000.19 to bring it in
    line with the revisions to the DoD Financial Management Regulations,
    volume 11A, chapter 3.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics through the Director of Acquisition Resources and
    Analysis nonconcurred and stated that the Deputy Under Secretary of Defense
    (Comptroller)/Chief Financial Officer has the functional responsibility for the
    content of DoD Financial Management Regulations. Therefore, it would be
    inappropriate for the Under Secretary of Defense for Acquisition, Technology,
    and Logistics/Resources and Analysis to revise the DoD Financial Management
    Regulations.

    Audit Response. We agree, however, in comments on the final report for
    Department of Defense Office of Inspector General Report No. D-2006-102,
    “Marine Corps Governmental Purchases,” July 31, 2006, the Office of the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer and the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics
    established an Interagency Working Group to review and recommend
    improvements to the DoD business practices and policies governing interagency
    orders under the Economy Act and other statutory authorities. As part of the its
    objectives, the Working Group plans to review and recommend changes to the
    DoD Financial Management Regulation, volume 11A, chapter 3. The Office of
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer anticipates
    issuing a revision to the DoD Financial Management Regulation in the spring of
    2007. We are requesting that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics – as the office responsible for the DoD Instruction
    4000.19 – revise the DoD Instruction 4000.19 to bring it in line with the DoD
    Financial Management Regulation. We request that the Under Secretary of
    Defense Acquisition, Technology, and Logistics provide comments on the final
    report.



                                       17
Note: Recommendations A.2.a. and A.2.b. have been combined and redirected.

A.2. We recommend that the Assistant Secretary of the Navy, Financial
Management and Comptroller:

       a. Direct the Navy Commands to develop and implement standard
operating procedures that will incorporate Navy Marine Corps Acquisition
Regulation Supplement and Financial Management Policy Manual guidance
on processing Military Interdepartmental Purchase Requests. The standard
operating procedures should also include but not be limited to:

               (1) Procedures and controls, such as a checklist, that ensure
that all required data and supporting documents are developed and
appropriately reviewed before a Military Interdepartmental Purchase
Request is certified for issuance or acceptance.

              (2) Roles and responsibilities of offices involved in the Military
Interdepartmental Purchase Requests process to ensure proper enforcement
of Federal, DoD, and Navy guidance.

                (3) Procedures and controls that ensure all required Military
Interdepartmental Purchase Request documents and source documentation,
including support for the receipt of ordered goods and services and the
validity of related disbursements, are properly maintained in a single file
location.

Management Comments. The Assistant Secretary of the Navy, Financial
Management and Comptroller partially concurred with the recommendation. The
Navy stated that it has published guidelines, policies, and procedures for the
proper implementation of MIPRs. The Financial Management Policy Manual, the
Department of the Navy’s Funds Usage Document Course, and other memoranda
provide Navy Commands with necessary tools for MIPRs preparation. The Navy
also stated that full implementation of existing policies by all commands appears
to be lacking. Therefore, the Department of the Navy will emphasize existing
guidelines and work to find ways to improve existing procedures.

Audit Response. The Assistant Secretary of the Navy, Financial Management
and Comptroller comments were partially responsive. Navy guidance exists;
however, the guidance is insufficient. The Navy Commands visited were not
following guidance, as we have identified in this report. The Commands did not
have existing policies and procedures in place that they consistently followed for
preparing MIPRs and their equivalents. In addition, personnel at two commands
stated that they followed the Financial Management Regulation. As a result,
command personnel did not always comply with Federal and DoD guidance when
preparing Military Interdepartmental Purchase Requests and their equivalents.
Therefore, we request that the Assistant Secretary of the Navy, Financial
Management and Comptroller direct the Navy Commands to develop standard
operating procedures and a respective plan of action for implementation. We also
request that the Assistant Secretary of the Navy, Financial Management and
Comptroller reconsider her position and provide comments on the final report.


                                    18
        b. Direct the Navy Comptroller Office to initiate preliminary reviews
and possible corrective actions for Military Interdepartmental Purchase
Requests in Appendix D that potentially violated the Antideficiency Act as
defined by the DoD Financial Management Regulation. We specifically refer
to the 18 Military Interdepartmental Purchase Requests that potentially
violated the Bona Fide Needs Rule and the 7 Military Interdepartmental
Purchase Requests that violated the statutory limitations imposed on the
appropriation. (See Appendix D for tables of Military Interdepartmental
Purchase Requests that potentially violated the Bona Fide Needs Rule or the
appropriation classification.)
Management Comments. The Assistant Secretary of the Navy, Financial
Management and Comptroller nonconcurred with the recommendation. She
stated that although the report identifies a number of process concerns, non-
compliance with a process should not automatically infer a potential violation of
the Bona Fide Needs Rule or a potential Antideficiency Act violation. In
addition, there is not sufficient information to warrant the initiation of such a
review. The Navy provided additional information for 5 of the 18 MIPRs
identified as having a questionable bona fide need at the time the order was
placed.

Audit Response. The Assistant Secretary of the Navy, Financial Management
and Comptroller comments are not responsive. Based on an analysis of the
violations, the DoD Comptroller identified the most frequent causes of violations
of the Antideficiency Act in the Financial Management Regulation as:
(1) established internal controls and standard operating procedures not followed,
(2) inadequate supervisory involvement or oversight, (3) lack of appropriate
training, and (4) inadequate standard operating procedures and internal controls.
We encountered at least one of the four aforementioned causes at the Navy
Commands visited. The lack of adequate supporting documentation; such as
accounting records, contracts, and statements of work; precluded us from
determining whether these MIPRs potentially violated the Antideficiency Act.

Furthermore, the additional information the Assistant Secretary of the Navy,
Financial Management and Comptroller provided for 5 of the 18 questionable
purchases did not support the claim that no violation of the Bona Fide Needs Rule
occurred. In addition, the information provided did not address the seven
questionable appropriation transfers for the following purchases:
W81EWF43070394, MIPR3A17G60016, MIPR4AL49MB306,
MIPR4D49MBGH24, MIPR4MO49MBNCD, MIPRMO49MCAFL, and
MIPR5AZ49MD507. The DoD FMR, volume 14, chapter 3, “Preliminary
Reviews of Potential Violations,” November 2006, requires that within 10
business days of receipt of a draft report that alleges a potential violation, the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
the Assistant Secretary for Financial Management of a Military Department, or
the Comptroller of a Defense Agency or DoD Field Activity, as applicable, must
request that a preliminary review of the potential violation be initiated within the
next 30 days. Therefore, we request that the Assistant Secretary of the Navy,
Financial Management and Comptroller direct the Navy Comptroller Office to
initiate preliminary reviews and possible corrective actions for the MIPRs in


                                     19
Appendix D that potentially violated the Antideficiency Act. Additionally, we
request the Assistant Secretary of the Navy, Financial Management and
Comptroller reconsider her position and provide comments on the final report.




                                   20
            B. Commands Managers’ Internal
               Control Program for Military
               Interdepartmental Purchase Requests
            The Commands management control program was ineffective and did not
            include identification or assessment of controls over MIPR transactions.
            This occurred because Navy Region and Construction Division did not
            implement a management control program and NAVAIR did not include
            self-assessment steps for controls over MIPR transactions. As a result, the
            Commands did not implement adequate controls to ensure that purchases
            for goods and services were properly justified, executed, and funds
            monitored.

Criteria for the Managers’ Internal Control Program
     Government Accountability Office. GAO/AIMD-00-21.3.1, “Standards for
     Internal Control in Federal Government,” November 1999, states,

            The Federal Managers’ Financial Integrity Act of 1982 requires the
            Government Accountability Office to issue standards for internal
            control in government. The standards provide the overall framework
            for establishing and maintaining internal control and for identifying and
            addressing major performance and management challenges and areas at
            greatest risk of fraud, waste, abuse, and mismanagement.

     The five standards for internal control are: control environment, risk assessment,
     control activities, information and communications, and monitoring. These
     standards define the minimum level of quality acceptable for internal control in
     Government and provide the basis against which internal control is to be
     evaluated.
     DoD Directive. DoD Directive 5010.38, “Management Control Program,”
     August 26, 1996, implements the Government Accountability Office and Office
     of Management and Budget guidance that is required by the Federal Managers’
     Financial Integrity Act of 1982. The DoD Directive requires DoD Components to
     implement a comprehensive strategy for management controls that provides
     reasonable assurance that “... programs and administrative and operating
     functions are efficiently and effectively carried out in accordance with applicable
     law and management policy.” The management control process should be
     integrated into the daily management practices of all DoD managers. When
     developing the Manager’s Internal Control Program, DoD managers should rely
     on all contributing information sources, including external audits.

     DoD Instruction. DoD Instruction 5010.40, “Management Control Program
     Procedures,” August 28, 1996, requires DoD Components to develop a
     Management Control Program. The Management Control Program, through its
     self-assessment process, assists managers in identifying material management


                                              21
     control weaknesses. The DoD Instruction states that in order to be a material
     weakness, two conditions must be satisfied:

            •   management controls are not in place, not used, or not adequate, and

            •   the weakness is material enough to require the attention of the next
                level of management.

     Each DoD Component should submit an annual statement of assurance based on a
     general assessment of the effectiveness of the management controls.

Assessment of Internal Controls
     The Commands management controls for processing MIPR transactions were not
     adequate to ensure that purchases for goods and services were properly justified,
     executed, and funds monitored. The Navy Region and Construction Division did
     not implement a management control program and NAVAIR did not perform a
     comprehensive self-evaluation of the internal controls related to MIPRs.
     Finding A further discusses the internal control deficiencies identified.

     During our visit in December 2005, the Navy Region personnel stated they had a
     draft management control program and the Construction Division personnel stated
     they had not implemented a formal management control programs. NAVAIR did
     not identify the MIPR process as an identifiable item under their budget and
     accounting unit and, therefore, did not assess risk or perform a management
     control review. A formal management control program and periodic assessments
     of internal controls would reveal inadequate and ineffective control practices and
     identify opportunities for improvement. By not implementing a management
     control program or not performing a comprehensive self-evaluation of the internal
     controls related to MIPRs, the internal controls were not adequate to ensure that
     purchases for goods and services were properly justified, executed, and funds
     monitored.

Recommendations, Management Comments, and Audit
  Response
     Redirected Recommendations. As a result of management comments, we
     redirected Recommendation B to the Office of the Assistant Secretary of the
     Navy, Financial Management and Comptroller because it has the functional
     responsibility for management controls.

     B. We recommend that the Office of the Assistant Secretary of the Navy,
     Financial Management and Comptroller direct the Commander of the Fleet
     Forces Command, Commander of Naval Installations Command, and
     Commander of Naval Air Systems Command to:




                                         22
       1. Perform self-assessments of the internal controls related to the
MIPR process, document the conditions discussed in this report, and
describe the progress in completing the Plan of Action Milestones.

       2. Determine whether the conditions meet the criteria for a material
weakness as stated in DoD Instruction 5010.40, “Material Control (MC)
Program Procedures,” January 4, 2006, and report the material weakness to
the next higher level of management.

Management Comments. The Assistant Secretary of the Navy concurred with
the overall intent of the recommendation and agreed to take responsibility for
implementing the recommendation.

Audit Response. We consider the Office of the Assistant Secretary of the Navy,
Financial Management and Comptroller comments partially responsive.
Although the Office of the Assistant Secretary of the Navy, Financial
Management and Comptroller agreed to take over the responsibility for the
implementation of this recommendation, she did not address how the
recommendation will be implemented. We request that the Assistant Secretary of
the Navy, Financial Management and Comptroller provide a plan of action to
implement Recommendation B in response to the final report.




                                   23
Appendix A. Scope and Methodology
           We conducted an audit of the Navy process for initiating, accepting, obligating,
           and disbursing for MIPRs, interagency purchases, and their equivalents.
           Specifically, we selected three Navy locations, NAVAIR, Patuxent River,
           Maryland; Construction Division, Norfolk, Virginia; and Navy Region,
           San Diego, California, to conduct our audit. We performed site visits to those
           locations from November 28, 2005, through December 16, 2005. At each
           location, we interviewed fund administrators, comptroller office staff, and
           contracting and legal personnel to learn the process used by the Navy to execute
           these transactions. We developed a MIPR review checklist, which we based on
           criteria established in the DFARS, FAR, FMR, Navy Financial Manual, NAVAIR
           Instructions, and other criteria as applicable. We compared the actual Navy
           process with the relevant criteria to assist in identifying weaknesses in internal
           controls.

           We selected a judgmental sample from MIPRs processed between September 20,
           2003, and September 30, 2005, for each location visited. We reviewed 60 MIPRs,
           valued at about $934 million that the NAVAIR, Construction Division, and Navy
           Region had issued to other Government sources. We also reviewed 57 MIPRs,
           valued at about $180 million that the NAVAIR, Construction Division, and Navy
           Region had received from other Government sources. We requested and
           reviewed the supporting documentation for each transaction associated with the
           MIPRs selected. Specifically, we requested and reviewed the following (if
           available): DD Form 448 “Military Interdepartmental Purchase Request,”
           DD Form 448-2 “Acceptance of MIPR,” e-mail correspondence identifying
           requirements, travel authorizations and vouchers, Memorandums for Record,
           Determination and Findings, Support Agreements, market research
           documentation, invoices, and accounting transactions. We completed the MIPR
           review checklist for each MIPR selected in our judgmental sample. We also
           requested and reviewed standard operating procedures relating to the initiation
           and execution of MIPRs, if available at the location visited.

           We visited DFAS Norfolk, Virginia and DFAS San Diego, California,
           December 12 through December 14, 2005, and DFAS Columbus, Ohio,
           January 17 through January 20, 2006. We interviewed personnel from the
           Accounting Office, IPAC, 6 MOCAS, 7 and Vendor Pay Department. DFAS
           provided some supporting documentation for payments and collections associated
           with incoming MIPRs received by the Navy. Specifically, DFAS locations
           provided the Standard Form 1080, Prompt Payment Certifications, CHOOSE 8
           reports, and invoices for outgoing and incoming MIPRs, as available, for
           transactions reviewed at NAVAIR, Construction Division, and Navy Region.

6
    Intra-governmental Payments and Collections System (IPAC) is a Treasury System.
7
    Mechanization of Contract Administration Services (MOCAS) is a DFAS system.
8
    Cash History On-line Operator Search Engine (CHOOSE) is DFAS register to the Department of the
    Treasury.


                                                    24
           We performed this audit from October 5, 2005, through September 2006 in
           accordance with generally accepted government auditing standards.

           Use of Computer-Processed Data. To achieve the audit objective, we relied on
           computer-processed data provided directly from Navy and DFAS personnel
           extracted from the STARS, 9 SIGMA, CFMS, FASTDATA, IPAC, MOCAS,
           Vendor Pay and Access Databases. We did not perform a formal reliability
           assessment of the computer-processed data. We did not find significant errors
           between the computer-processed data and MIPR source documents that would
           preclude use of the computer-processed data to meet the audit objective or that
           would change conclusions in this report.

           Use of Technical Assistance. The Quantitative Methods Division and the
           Technical Assessment Division of the Department of Defense Office of the
           Inspector General provided assistance. The Quantitative Methods Division ran a
           random sample for each Navy site based on the data provided in the universe.

           Government Accountability Office High-Risk Area. The Government
           Accountability Office has identified several high-risk areas in DoD. This report
           provides coverage of the Management of Interagency Contracts high-risk area.




9
    Standard Accounting and Reporting System (STARS) is the official accounting system for the DFAS.



                                                    25
Appendix B. Prior Coverage
       During the last 5 years, the Department of Defense Inspector General (DoD IG),
       and Naval Audit Service have issued five reports discussing Intragovernmental
       transactions. Unrestricted DoD IG reports can be accessed at
       http://www.dodig.mil/audit/reports. Unrestricted Naval Audit Service reports can
       be accessed at http://www.hq.navy.mil/NavalAudit.

DoD IG
       DoD IG Report No D-2007-044, “FY 2005 DoD Purchases Through the
       Department of Interior,” January 16, 2007

       DoD IG Report No D-2007-042, “Potential Antideficiency Act Violations on
       DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

       DoD IG Report No D-2007-032, “Report on FY 2005 DoD Purchases Made
       Through the Department of the Treasury,” December 8, 2006

       DoD IG Report No D-2007-023, “FY 2005 DoD Purchases Made Through the
       National Aeronautics and Space Administration,” November 13, 2006

       DoD IG Report No D-2007-007, “FY 2005 DoD Purchases Made Through the
       General Services Administration,” October 30, 2006

       DoD IG Report No. D-2006-102, “Marine Corps Governmental Purchases,” July
       31, 2006

       DoD IG Report No. D2003-095, “Financial Management: Accounting for
       Reimbursable Work Orders at Defense Finance and Accounting Service
       Charleston,” June 4, 2003

       DoD IG Report No. D2003-005, “Readiness: DoD Use of the North Atlantic
       Treaty Organization Maintenance and Supply Agency,” October 7, 2002

       DoD IG Report No. D 2002-110, “Acquisition: Policies and Procedures for
       Military Interdepartmental Purchase Requests at Washington Headquarters
       Service,” June 19, 2002

Navy
       Naval Audit Service Report No. N2004-0039, “Unliquidated Obligations for the
       Research, Development, Testing, and Evaluation, Navy Appropriation,”
       April 13, 2004




                                          26
Appendix C. Glossary of Technical Terms
Agency Agreements. Section 1535, title 31, United States Code, “Agency Agreements,”
allows the head of an agency or major organizational unit within an agency to place an
order with another agency for goods or services if amounts are available, it is in the best
interest of the U.S. Government, the other agency can fill the order, and the order cannot
be provided by contract as conveniently or economically by a commercial enterprise.

Antideficiency Act Violation. The Antideficiency Act is codified in a number of
sections of the United States Code (such as 31 U.S.C 1341 (a), 1342, 1349-1351,
1511 (a), and 1512-1519). The purpose of these statutory provisions, known collectively
as the Antideficiency Act, is enforcing the constitutional powers of the purse residing in
Congress with respect to the purpose, time, and amount of expenditures made by the
Federal Government. Violations of other laws may create violations of the
Antideficiency Act provisions (for example, the “Bona Fide Needs rule,”
31 U.S.C. 1502(a)). The potential Antideficiency Act violations in this report specifically
refer to 31 U.S.C. 1341(a) (1), which states an officer or employee of the United States
Government may not (A) make or authorize an expenditure or obligation exceeding an
amount available in an appropriation or fund for the expenditure or obligation or
(B) involve the Government in a contract or obligation for the payment of money before
an appropriation is made unless authorized by law. Section 1350, title 31, United States
Code states that an officer or employee of the U.S. Government knowingly and willfully
violating 31 U.S.C. 1341(a) or 1342 will be fined up to $5,000, imprisoned for up to
2 years, or both. Section 1351, title 31, United States Code states that if an officer or
employee of an executive agency violates 31 U.S.C. 1341(a) or 1342, the head of the
agency will report immediately to the President and Congress all relevant facts and a
statement of actions taken.

Appropriations. An appropriation is a provision of legal authority by an act of the
Congress that permits Federal agencies to incur obligations and to make payments from
the Treasury for specified purposes. An appropriation usually follows enactment of
authorizing legislation. An appropriation act is the most common means of providing
budget authority. Appropriations do not represent cash actually set aside in the Treasury
for purposes specified in the appropriation act; they represent limitations.

Budget Authority. Budget authority is the authority becoming available during the year
to enter into obligations that result in immediate or future outlays of Government funds.

Direct Citation Procurement. Direct citation procurement refers to procurement
accomplished by combining the requirements of one or more other DoD Components
with those of the procuring DoD Component. The procuring DoD Component may issue
one contract with separate schedules showing the quantities, prices, dollar amounts, and
citation of funds of each requiring DoD Component. The direct citation order is recorded
as an obligation by the requiring DoD Component when it is notified in writing that the
procuring DoD Component's contract or project order has been executed, or when a copy
of the contract or project order is received.




                                            27
DoD Policy on Interagency Agreements. DoD Instruction 4000.19, “Interservice and
Intragovernmental Support,” August 9, 1995, implements policies, procedures, and
responsibilities for intragovernmental support as a result of agreements among Federal
Government activities. DoD organizations may enter into interagency agreements with
non-DoD Federal activities when funding is available to pay for the support, the
agreement is in the best interest of the Government, the supplying activity is able to
provide the support, the support cannot be provided as conveniently or economically by a
commercial enterprise, and the agreement does not conflict with any other agency’s
authority. Determinations must be approved by the head of the major organizational unit
ordering the support and must be attached to the agreement.

Economy Act. The Economy Act authorizes agencies to enter into mutual agreements to
obtain supplies or services by interagency or intra-agency acquisition. The Economy Act
applies when a more specific statutory authority does not exist.

Economy Act Orders. Economy Act orders must be supported by a Determination and
Findings. The Determination and Findings must state that the use of an interagency
acquisition is in the best interest of the U.S. Government and the supplies or services
cannot be obtained as conveniently or economically by contracting directly with a
commercial enterprise. A contracting officer of the requesting agency with authority to
contract for the supplies or services to be ordered, or another official designated by the
agency head, must approve the Determination and Findings.

Expired Appropriation. An expired appropriation is budget authority whose period of
availability for incurring new obligations has expired but the appropriation is not closed
or canceled. During this period, the appropriation is available for adjustment to, or
payment of, existing obligations. Appropriations remain in an expired status for 5 years.
At the end of the 5-year expiration period, the appropriation is closed or canceled and is
no longer available for the payment of unliquidated (undisbursed) obligations.

Interservice Support. Interservice support is support provided by one DoD activity to a
DoD activity of another Military Service, Defense Agency, Unified Combatant
Command, Army Reserves, Navy Reserves, Air Force Reserves, Marine Corps Reserves,
Air National Guard, or Field Activity.

Intragovernmental Support. Intragovernmental Support is support provided by a DoD
organization to a non-DoD Federal organization and vice versa. It does not include
support provided to or received from foreign governments.

Military Interdepartmental Purchase Request (MIPR). A MIPR is an order issued by
one Military Service to another to procure services, supplies, or equipment for the
requiring service. The MIPR (DD Form 448) may be accepted on a direct citation or
reimbursable basis. It is an “Economy Act” (31 U.S.C. 1535) order subject to downward
adjustment when the obligated appropriation is no longer valid for obligation.

Obligations. Obligations are amounts of orders placed, contracts awarded, services
received, or similar transactions made by Federal agencies during a given period, which
will result in outlays during the same or some future period.




                                            28
Reimbursable Procurement. Reimbursable procurement refers to an order for supplies,
material, or equipment placed by a requiring DoD Component (a) for procurement by
another DoD Component or Federal agency on a contract funded by the procuring DoD
Component or Federal agency, without separate identification of the items, or separate
citation of the funds of the requiring DoD Component; and (b) with subsequent delivery
to and reimbursement by the requiring DoD Component. The reimbursable order is
recorded as an obligation by the requiring DoD Component when the procuring DoD
Component accepts the reimbursable order in writing.

Support Agreement. A Support Agreement is an agreement to provide recurring
support to another DoD of non-DoD Federal activity. Support Agreements are recorded
on a DD Form 1144, “Support Agreement,” or similar format. It defines the support to
be provided by one supplier to one or more receivers and specifies the basis for
calculating reimbursement charges (if any) for each service, establishes the billing and
reimbursement process, and specifies other terms and conditions of the agreement.




                                           29
Appendix D. MIPRs Reviewed

Outgoing MIPRs

                                    Naval Air Systems Command
         MIPR No.          MIPR Value                                         Initiation                                                                                           Preparation                                                                                                  Execution




                                                                                No Determination & Findings, Memorandum
                                                                                for the Record, or Support Agreement
                                           No Market Research Documentation




                                                                                                                          Bona Fide Needs Rule Violation




                                                                                                                                                                                                                                                                                                                      Untimely/Improper Obligation
                                                                                                                                                                                     Point of Contact Information




                                                                                                                                                                                                                                                                   Validity of Disbursements

                                                                                                                                                                                                                                                                                               Untimely Commitments
                                                                                                                                                           Delivery Requirements




                                                                                                                                                                                                                                                                                                                                                     Untimely Deobligation
                                                                                                                                                                                                                    Additional Line Items




                                                                                                                                                                                                                                                                                                                                                                             Accounting Records
 N0001905MP04938            $142,663,523   X                                               X                                 *                                                                                                               Fiduciary Authority
                                                                                                                                                                                                                                             X                     X                                                                                                         X
 N0001905MP00504                $200,000   X                                               X                                 *                             X                                                                                 X                     X                                                                                                         X
 N0001904MP02695            $247,824,085   X                                               X                                                                                          x                                                      X                     X                                                                                                         X
 N0001902MPAD01D            $136,260,578   X                                               X                                                                                                                             X                                         X                                                                                                         X
 N00019505MP02079           $147,949,843   X                                               X                                 *                                                                                           X                                         X                                                                                                         X
 N00019504MP11220             $2,545,076   X                                               X                                 *                             X                                                                                                       X                                                                                                         X
 N0001901MPCV14F                $193,866   X                                               X                                                               X                          x                                                                            X                                                                                                         X
 N0001903MP02016                    $264   X                                               X                                                               X                                                                                                       X                                                                                                         X
 N0001904MP04524                 $97,316   X                                               X                                                                                                                                                                       X                                                                                                         X
 N00019504MP06932               $600,000   X                                               X                              *                                X                                                                                                       X                                                                                                         X
 N0001904MP00104              $5,936,056                                                   X                                                                                                                             X                                         X                                                                                                         X
 N0001904MP11761                $150,000   X                                               X                                 *                                                                                                               X                     X                                                                                                         X
 N0001905MP00220            $237,600,000   X                                               X                                 *                             X                                                                                                       X                                                                                                         X
 N0001904MP10553                 $17,166   X                                               X                                                                                                                                                                       X                                                                                                         X
 N0001904MP06530                $435,600   X                                               X                                 *                             X                                                                                X 10                   X                                                                                                         X
 N0001904MP05280                 $16,568   X                                               X                                                                                                                                                                       X                                                                                                         X
 N00019504MP11627               $110,000   X                                               X                                 *                                                                                                               X                     X                                                                                                         X
 N00019504MP00304               $114,612   X                                               X                                 *                             X                                                                                                       X                                                                                                         X
 N0001905MP09319                 $10,310   X                                               X                                                                                                                                                                       X                                                                                                         X
 N0001903MP10363                 $70,000   X                                               X                                 *                             X                                                                                                       X                                                                                                         X
             20             $922,794,863   19                                              20                              0                                9                         2                                   3                  6                     20                                0                             0                       0                 20
*PotentialBona Fide Needs Rule Violations (11)
“X” indicates that the MIPR was deficient in the stated area.

10
     We could not identify signature on Form DD 448



                                                                                                                     30
                            Commander Navy Region Southwest
            MIPR No.           MIPR Value                                         Initiation                                                                                               Preparation                                                                                                                 Execution




                                                                                    No Determination & Findings, Memorandum for
                                               No Market Research Documentation


                                                                                    the Record, or Support Agreement

                                                                                                                                  Bona Fide Needs Rule Violation




                                                                                                                                                                                                                                                                                                                            Untimely/Improper Obligation
                                                                                                                                                                                            Point of Contact Information




                                                                                                                                                                                                                                                                         Validity of Disbursements

                                                                                                                                                                                                                                                                                                     Untimely Commitments
                                                                                                                                                                   Delivery Requirements




                                                                                                                                                                                                                                                                                                                                                           Untimely Deobligation
                                                                                                                                                                                                                           Additional Line Items




                                                                                                                                                                                                                                                                                                                                                                                   Accounting Records
                                                                                                                                                                                                                                                   Fiduciary Authority
 N0024605MP00108                $2,056,185    X                                                   X                                                                                          X                                                     X                                                                                                       X
 N3146605MP001WR                $1,894,651    X                                                   X                                                                                          X                                                     X                                                                        X                              X
 N0024604MP32S01                $1,583,570    X                                                   X                                                                                          X                                                     X                                                  X                     X                              X
 N60495-05-MP-00108             $1,441,694    X                                                   X                                                                                          X                                                     X                                                                                                       X
 N6049504MP32302                $1,403,801    X                                                   X                                                                                          X                                                     X                                                  X                     X                              X
 N6049504MPX6041                     $1,000   X                                                   X                                                                                          X                                                     X
 N6923205MP001A9                   - 11       X                                                   X                                                                 X                                                                              X                                                                        X                              X
 N6106505MP009XE                   $23,000    X                                                   X                                                                                                                                                X                       X
 N0024205MP00100                   $81,019                                                                                                                                                                                                         X                       X                         X                      X                              X
 N0024205MP0022N                     $9,567   X                                                                                                                     X                                                                              X                       X                                                X
 N6106504MPX9148                   $89,900    X                                                   X                                                                                                                                                X                                                                        X
 N6923204MPGJ019                   $47,848    X                                                   X                                      *                          X                                                                              X                       X                                                X
 N6106505MPFB001                   $33,545    X                                                   X                                                                                                                                                X                                                  X                     X                              X
 N0024605MP0202N                     $4,894                                                                                               *                         X                                                                              X
 N6340604MPE1017                   $70,780     X                                                   X                                                                X                                                                              X                       X                                                X
 N0024504MPBA029                   $87,719                                                                                                *                                                                                                        X
 N6106505MP005XE                  $104,862    X                                                   X                                                                                                                          X                     X
 N6340604MPE1016                   $71,898    X                                                   X                                                                                                                                                X                       X                                                X                              X
 N6923204MP32603                     $7,477   X                                                                                                                                                                                                    X                                                                                                       X
 N6923203MPG9015                   $42,870    X                                                                                           *                          X                                                                             X
               20               $9,056,280    17                                             14                                       0                               6                              6                        1                    20                       6                           4                   11                             10                            0



*Potential
         Bona Fide Needs Rule Violations (4)
“X” indicates that the MIPR was deficient in the stated area.

11
      MIPR issued to the Defense Supply Center Philadelphia in November 2004 to construct a golf cart trail
     around a golf course for $48,000. However, the project terminated because the contractor could not
     perform the service.



                                                                                                                      31
                   First Naval Construction Division
      MIPR No.      MIPR Value                                      Initiation                                                                                                    Preparation                                                                                                       Execution




                                                                       No Determination & Findings, Memorandum for the
                                 No Market Research Documentation




                                                                                                                         Bona Fide Needs Rule Violation
                                                                       Record, or Support Agreement




                                                                                                                                                                                                                                                                                                                    Untimely/Improper Obligation
                                                                                                                                                                                    Point of Contact Information




                                                                                                                                                                                                                                                                 Validity of Disbursements
                                                                                                                                                                                                                                                                                             Untimely Commitments
                                                                                                                                                          Delivery Requirements




                                                                                                                                                                                                                                                                                                                                                   Untimely Deobligation
                                                                                                                                                                                                                   Additional Line Items




                                                                                                                                                                                                                                                                                                                                                                           Accounting Records
V5703403MPM3818       $648,378                                                      X                                     *                                 X                                                                              Fiduciary Authority   X                                                                                                           X
V5703404MPR4823       $591,309                                                      X                                                                       X                                                        X                                           X
V5703404MPR4826       $509,581                                                      X                                                                       X                                                                                                    X
V5703405MPM5815       $250,000                                                      X                                     *                                                                                                                                      X                                                                                                           X
V5703405MPM5812        $61,756   X                                                  X                                                                                                                                                                            X
V5703404MPM4426        $15,700   X                                                  X                                                                                                                                                                            X                                                     X                              X
V5703404MPM4810        $17,865   X                                                  X                                                                                                                                                                            X
V5703403MPM4814         $1,187   X                                                  X                                                                                                                                                                            X                                                                                    X
V5703404MPM4818           $870   X                                                  X                                                                                                                                                                            X
V5703404MPM4819        $22,324   X                                                  X                                     *                                                                                                                                                                                            X
V5703405MPM5430       $104,972                                                      X                                                                       X                                                                                                    X
V5703405MPM5431        $11,500                                                                                                                                                          X                                                                        X
V5703405MPM5433         $8,458   X                                                     X                                                                    X                                                                                                    X
V5703405MPM5809         $1,891   X                                                     X                                                                                                                                                                         X                                                     X
V5703405MPM5810        $97,965   X                                                     X                                                                                                                             X                                           X                                                     X
V5703405MPM5814         $7,534   X                                                     X                                                                                                                                                                         X
V5702403MPR3832        $16,983   X                                                     X                                                                                                                                                                         X
V5703404MPR4801           $473   X                                                                                                                                                                                                                               X                                                     X
V5703404MPR4805        $16,572   X                                                                                                                                                                                                                               X                                                     X
V5703405MPR5812         $6,000   X                                                                                                                                                                                                                               X
        20          $2,391,318   14                                              16                                                0                         5                           1                            2                          0               19                                   0                  6                            2                       2




*Potential
         Bona Fide Needs Rule Violations (3)
“X” indicates that the MIPR was deficient in the stated area.


                                                                                                                                   32
Incoming MIPRs



                  Naval Air Systems Command
    MIPR No.       MIPR Value                                           Acceptance                                                                        Administration




                                  No Required Justification Documents




                                                                                                                                                                                                                Appropriation Classification
                                                                                                                                  Support Documentation




                                                                                                                                                                                           Accounting Records
                                                                                                              Timely Acceptance
                                                                          Incomplete Forms

                                                                                             Required Forms




                                                                                                                                                                           Costs Overrun
                                                                                                                                                           Deobligations
 NFY76210597300      $3,450,000   X                                       X
 NMIPR049208433     $20,800,000   X                                                                                               X                                                        X
 SBO40052880947       $155,180                                            X
 F1ATD24295G002     $62,449,000   X                                       X
 F1ATD25258G001     $41,000,000   X                                       X
 F1AF115097G001        $36,320    X
 F1ATD25311G001      $5,000,000   X                                       X
 NMIPR039208698     $12,000,000   X                                                                           X                   X                                                        X
   DWAM40386         $3,000,000   X
 MIPR5APAXR8000       $174,578    X                                       X                                                       X                                                        X
 MIPR5CPAX00446         -         X                                       X                                                                                                                X
  MIPRAATD0438        $234,500    X                                       X                                                       X                                                        X
  MIPRAATD0568        $165,000    X                                       X                                                       X                                                        X
 MIPR3DPAX00330       $465,592    X                                       X                                                       X                                                        X
 MIPR5A25400006       $230,260    X                                       X
 MIPR3FSIMRG190       $107,493    X                                                                           X                   X                                                        X
 MIPR3LPAX00587     $12,530,282   X                                       X                                   X                   X                                                        X
 MIPR4BMGCRG055        $23,667    X                                                                                               X                                                        X
 MIPR4BPAX00316         -                                                 X                                                                                                                X
 MIPR4FPAX00512      $4,607,872                                           X                                                       X                                                        X
       20          $166,429,744   17                                      14                 0                3                   10                        0                0             12                        0



                                                                                   33
                  Commander Navy Region Southwest
      MIPR No.         MIPR Value    Acceptance                                                                                      Administration




                                     No Required Justification Documents




                                                                                                                                                                                                                Appropriation Classification
                                                                                                                                   Support Documentation




                                                                                                                                                                                           Accounting Records
                                                                                                               Timely Acceptance
                                                                           Incomplete Forms

                                                                                              Required Forms




                                                                                                                                                                           Costs Overrun
                                                                                                                                                           Deobligations
MIPR5A97885804         $2,529,606                                          X                                                       X                       X
MIPR5A97885801         $2,350,000                                          X                                    X                  X                                       X
MIPR4A97978715         $1,626,524                                          X                                                       X                                       X
MIPR4A97978665         $1,840,516                                          X                                                       X
MIPR4A64051001         $2,128,769                                          X                                                       X
MGLTWEC3275147          $96,856      X                                                                         X                   X
N040700116              $18,287      X                                     X                                                       X                       X
S0506A052049            $24,704                                            X                                                       X                                       X
MGLTWEC4275176          $171,750     X                                     X                                   X                   X                       X
LOS0409FO                $2,000      X                                                                                                                     X
W81EWF43070394          $76,990      X                                     X                                   X                   X                       X                                                    X
DESCMR052512             $5,200                                            X                                                       X                       X
MGLTWEC4275178           $3,325      X                                     X                                   X                   X                       X
XS4H5A44F013MP          $881,500                                                                               X                                           X
MIPROWBAFY05-110        $69,400      X                                     X                                   X
DESC-MR-05-0771          $9,000      X                                     X                                                                               X
XS5H5A55F011MP          $400,000                                           X                                   X
        17             $12,234,426   8                                     14                 0                8                   12                      9               3               0                        1




                                                                                   34
               First Naval Construction Division
    MIPR No.       MIPR Value   Acceptance                                                                                       Administration




                                No Required Justification Documents




                                                                                                                                                                                                            Appropriation Classification
                                                                                                                               Support Documentation




                                                                                                                                                                                       Accounting Records
                                                                                                           Timely Acceptance
                                                                      Incomplete Forms

                                                                                          Required Forms




                                                                                                                                                                       Costs Overrun
                                                                                                                                                       Deobligations
N0001805MPAM008      $235,400   X                                     X                   X                                    X                       X
MIPR3A17G60016        $13,200   X                                     X                                                        X                        X                                                      X
W81EWF50327070         $1,000   X                                     X                                                        X
W16ROE40295174         $2,000   X                                     X                                                        X
MIPR4AL49MB306        $38,000   X                                     X                                                        X                        X                                                   X
MIPR4D49MBGH24        $51,500   X                                     X                                                        X                       X                                                    X
MIPR4MO49MBNCD        $60,000   X                                     X                                                        X                       X                                                    X
MIPRMO49MCAFL         $57,078   X                                     X                                                        X                       X                                                    X
MIPR5AZ49MD507        $84,000   X                                     X                                                        X                       X                                                    X
MIPR4AL490H501        $58,000   X                                     X                                                        X                       X
   MPVA-002            $2,000   X                                     X                   X                X                   X                       X
MIPR4B17G6L034         $4,000   X                                     X                                                        X                       X
MIPR41LOGSS039        $25,000   X                                     X                                                        X                       X
MIPR5MO490HAFL        $43,700   X                                     X                                                        X                       X
MIPR5ALOGNV029        $57,000   X                                     X                                                        X                       X
MIPR5JLOGGP066        $50,000   X                                     X                                                        X                       X
MIPR0304N00046         $3,000   X                                     X                                                        X                       X
 F2JT735063G001        $3,700   X                                     X                                                        X                       X
MIPRCH05000002          $500    X                                     X                                                        X                       X
MIPR4LEUSE2095        $76,000   X                                     X                                                        X                       X
       20            $865,078   20                                    20                  2                1                   20                      18              0               0                    6




                                                                                         35
Appendix E. Deficiencies with MIPRs Reviewed

Outgoing MIPRs

                                        Naval Air   Commander     First Naval
                                        Systems     Navy Region   Construction
                                        Command     Southwest     Division       Total

Total Number of MIPRs Reviewed             20           20            20            60

MIPRs did not have market research         19           17            14         50 of 60
MIPRs did not have Determination and
Findings or Support Agreement              20           14            16         50 of 60
Compliance with Bona Fide Needs
Rule was not determinable                  11           4              3         18 of 60
MIPRS did not have the required time
of delivery or performance                  9           6              5         20 of 60
MIPRs did not have the required point
of contact information                      2            6             1         9 of 60

MIPRs added additional line items           3           1              2         6 of 60
MIPRs signature did not have the
required fiduciary authority                6           20             0         26 of 60
MIPR file did not include source
documents to support disbursement
transactions ( such as copies of
shipping reports or invoices)              20           6              19        45 of 60

MIPR was not committed timely               0           4              0         4 of 60
Failed to timely obligate funds on
receipt of the obligating document         0            11             6         17 of 60
Failed to timely deobligate unused
funds                                       0           10             2         12 of 60
MIPR documentation did not include
accounting system information              20           0              2         22 of 60




                                           36
Incoming MIPRs

                                    Naval Air    Commander     First Naval
                                    Systems      Navy Region   Construction
                                    Command      Southwest     Division       Total
Total Number of MIPRs
Reviewed                               20            17            20            57
MIPRs did not have required
justification forms                    17             8            20         45 of 57
MIPRs, Form DD 448-2, were not
filled as required (block 6 and
block 13 were not completed)           14            14            20         48 of 57
Incorrectly accepted MIPR forms
from a Department of Navy
Organization                            0             0             2          2 of 57
MIPRs were not accepted within
the required 30 days period             3             8             1         12 of 57
MIPR did not have documentation
to support reimbursable spending
transactions                           10            12            20         42 of 57

Funds were not timely deobligated       0             9            18         27 of 57
MIPRs had balances in excess of
the funds authorized by the MIPR
document                                0             3             0          3 of 57
MIPR documentation did not
include accounting information         12             0             0         12 of 57
MIPRs had altered the
appropriation classification            0             1             6          7 of 57




                                            37
Appendix F. Availability of Funds

Research, Development, Test, and Evaluation (RDT&E)
    DoD organizations fund development, test, and evaluation requirements,
    including designing prototypes and processes, with RDT&E appropriations. DoD
    organizations use RDT&E funds to develop major system upgrades, to purchase
    test articles, and to conduct developmental testing and initial operational testing
    and evaluation before they accept systems and have them produced. In general,
    RDT&E funds should be used for all developmental activities involved with new
    systems or major upgrades. RDT&E funds are available for obligation for
    2 years.

Operation and Maintenance
    Expenses incurred in continuing operations and current services are funded with
    O&M appropriations. The DoD Comptroller considers all modernization costs
    under $250,000 to be expenses, as are one-time projects such as developing
    planning documents and conducting studies. O&M funds are available for
    obligation for 1 year.

Procurement
    The acquisition and deployment of a complete system or the modification of a
    system with a cost of $250,000 or more is an investment and should be funded
    with a procurement appropriation. Complete system cost is the aggregate cost of
    all Components (for example, equipment, integration, engineering support, and
    software) that are part of, and function together, as a system to meet an approved
    documented requirement. For modification efforts, count only the cost of the
    upgrade (for example, new software, hardware, and technical assistance) towards
    the investment threshold. Procurement funds are available for obligation for
    3 years.

Defense Working Capital Fund
    The Defense Working Capital Fund is a revolving fund, which means that it relies
    on sales revenue instead of direct appropriations to finance its operations. A DoD
    organization that has a Defense Working Capital Fund receives reimbursements
    from another organization for the goods purchased or the services rendered. The
    revolving fund operates on a break-even basis over time, that is, the DoD
    organization operating the Defense Working Capital Fund neither makes a profit
    nor incurs a loss. Rates are adjusted annually to keep the fund in balance.
    Defense Working Capital Funds do not have a restriction on the time they are
    available for obligation.


                                        38
Military Construction
     A military construction project includes the cost of all military construction work
     to produce a complete and usable facility or a complete and usable improvement
     to an existing facility. Section 2802, title 10, United States Code, states that the
     Secretary of Defense and the Secretaries of the Military Departments may carry
     out such military construction projects as are authorized by law. Section 2805,
     title 10, United States Code, states that the Secretary of Defense and the
     Secretaries of the Military Departments may carry out unspecified minor
     construction projects equal to or less than $1.5 million. If the project is to correct
     a deficiency that is life, health, or safety threatening, then the Secretary may
     approve the project to cost up to $3 million. Military construction funds are
     available for obligation for 5 years.




                                           39
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy, Financial Management and Comptroller
Naval Inspector General
Auditor General, Department of the Navy
Commander of Fleet Forces Command
Commander of Naval Installations Command
Commander of Naval Air Systems Command
Director, Material Readiness and Logistics (OPNAV N4)

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform




                                          40
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        41
Office of the Under Secretary of Defense,
Director of Acquisition, Technology, and
Logistics Comments
                                            Final Report
                                             Reference




                                            Redirected
                                            and Revised
                                            Recommen-
                                            dation A.1




                       43
Office of the Assistant Secretary of the Navy,
Financial Management and Comptroller
Comments




                        44
     Final Report
      Reference




     Redirected
     and
     combined
     Recommen-
     dations A.2.a
     and A.2.b.

     Renumbered
     Recommen-
     dation A.2.c
     to A.2.b




45
46
     Final Report
      Reference




     Redirected
     Recommen-
     dation B




47
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia Marsh
Barbara A. Sauls
Monica M. Harrigan
Corrisse L. Carlton
Robert France
Miwon Kim
Shanika Knight
Carmen D. Chapa
Faith Crawford
Giormary Peluyera
Calvin Hursey
Damarus Sanders
Erin S. Hart
Ann Thompson
